U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL




AUDIT OF CONSTRUCTION MANAGEMENT

AT THE IDAHO NATIONAL ENGINEERING LABORATORY




The Office of Inspector General wants to make the distribution of its reports as
customer friendly and cost-effective as possible. Therefore, this report will be
available electronically through the Internet five to seven days after publication
at the following alternative addresses:

Department of Energy Headquarters Gopher
gopher.hr.doe.gov

Department of Energy Headquarters Anonymous FTP
vml.hqadmin.doe.gov

Department of Energy Human Resources and Administration Home Page
http://www.hr.dow.gov/refshelf.html

Your comments would be appreciated and can be provided on the Customer Response
Form attached to the report.



This report can be obtained from the
U.S. Department of Energy
Office of Scientific and Technical Information
P.O. Box 62
Oak Ridge, Tennessee 37831




Report Number:   WR-B-96-03         Western Regional Audit Office
Date of Issue:   October 18, 1995   Albuquerque, NM 87185-5400


AUDIT OF CONSTRUCTION MANAGEMENT
AT THE IDAHO NATIONAL ENGINEERING LABORATORY
TABLE OF CONTENTS


Page

            SUMMARY . . . . . . . . . . . . . . . . . . . . .    1

PART I    - APPROACH AND OVERVIEW . . . . . . . . . . . . . .    2

            Introduction. . . . . . . . . . . . . . . . . . .    2

            Scope and Methodology . . . . . . . . . . . . . .    2

            Background. . . . . . . . . . . . . . . . . . . .    3

            Observations and Conclusions. . . . . . . . . . .    3

PART II   - FINDINGS AND RECOMMENDATIONS. . . . . . . . . . .    5

            Laboratory Construction Projects. . . . . . . . .    5

PART III - MANAGEMENT AND AUDITOR COMMENTS . . . . . . . . .    11

PART IV   - OTHER MATTERS . . . . . . . . . . . . . . . . . .   13

            Classifying Projects. . . . . . . . . . . . . . .   13
U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
OFFICE OF AUDIT SERVICES
WESTERN REGIONAL AUDIT OFFICE

AUDIT OF CONSTRUCTION MANAGEMENT
AT THE IDAHO NATIONAL ENGINEERING LABORATORY

Audit Report Number:    WR-B-96-03         October 18, 1995

SUMMARY

        The Secretary of Energy's streamlining initiatives, coupled with established
policy, require the Idaho Operations Office (Idaho) to ensure that its construction
projects are necessary and justified. Accordingly, the objectives of this audit
were to determine if Idaho was validating project plans; identifying and evaluating
construction project alternatives; and reassessing the need for planned
construction in accordance with the Laboratory's decreasing mission needs.

        Although Idaho has made a commitment to streamline operations and make the
Laboratory less costly to operate, our audit identified seven ongoing construction
projects, totaling over $40 million, that were either not needed or larger than
needed. This occurred because Idaho either did not document or perform an
independent verification, evaluation, and reassessment of the need for these seven
projects.

        We recommended that the Manager, Idaho Operations Office, review
construction project plans and cancel those projects that do not support the
Laboratory's current and foreseeable mission; independently identify and
consistently evaluate alternatives; limit needed projects to the minimum size
required to achieve the Laboratory's mission; and reassess the need for and size of
construction projects when significant events occur. By implementing these
recommendations, Idaho could save about   $26.4 million.

        Management concurred with the finding and recommendations presented in the
report and has already initiated corrective actions in response to the
recommendations.




PART I

APPROACH AND OVERVIEW

INTRODUCTION

        The Secretary of Energy envisions the Department operating more cost
effectively, while maintaining its level of service to the American public. It is,
therefore, imperative for Idaho to limit construction projects to those that are
vital for supporting the Laboratory's mission and to complete those projects in the
most economic and efficient manner possible. Accordingly, the objectives of this
audit were to determine if Idaho was validating project plans; identifying and
evaluating construction project alternatives; and reassessing the need for planned
construction projects.

SCOPE AND METHODOLOGY

        The audit was conducted at the Idaho Operations Office and the Laboratory
from January through July 1995. According to a construction project listing
covering Fiscal Years 1992 through 2000, Idaho had 290 projects totaling over $2.8
billion in various stages of construction (conceptual design through completion).
We randomly selected and reviewed 52 projects totaling over $465.9 million.

       To accomplish the audit objectives, we:

reviewed Federal laws and regulations, Office of Management and Budget circulars,
and Departmental orders;

interviewed personnel responsible for managing, reviewing, and evaluating
construction project proposals;

reviewed construction project documents, such as validation reports, project
listings, design reports, functional and operational requirement reports; and,

toured existing facilities and sites where construction projects were either
ongoing or planned.

        We performed the audit according to generally accepted Government Auditing
Standards for performance audits and included assessments of internal controls and
compliance with laws and regulations, to the extent necessary, to satisfy the audit
objectives.

        We assessed significant internal controls with respect to the Department's
project management system. Our assessment included identifying and reviewing key
internal control procedures for evaluating the need for construction projects.
Since we did not rely extensively on computer processed data, we did not fully
assess the reliability of that data. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have existed
at the time of our audit. An exit conference was held on October 17, 1995.

BACKGROUND

        The Laboratory located in and around Idaho Falls, Idaho, is the largest
applied engineering facility within the Department's national laboratory system.
Initially chartered in 1949, the Laboratory was instrumental in establishing the
U.S. Navy's nuclear submarine fleet, supporting the commercial nuclear power
industry, and recovering uranium from spent nuclear fuel. For more than 40 years,
these three missions were the focus of the Laboratory's operations.

        Until the end of Fiscal Year 1994, five contractors managed and operated the
Laboratory. Then, in October 1994, the Department's consolidated contract with
Lockheed Idaho Technologies Company (Lockheed) became effective and, in November,
the Laboratory's primary mission changed from supporting national defense and the
commercial nuclear power industry to environmental restoration and waste
management. Although the Laboratory will continue supporting national defense and
the commercial nuclear power industry, the focus of its current environmental
management mission is the storage, treatment, stabilization, and disposal of
radioactive waste stored at the Laboratory.
OBSERVATIONS AND CONCLUSIONS

        According to the Secretary's "Saving Dollars and Making Sense" report of May
3, 1995, the Department is committed to making its operations smaller and less
costly to operate. As part of that commitment, the Secretary announced several
initiatives and proposed legislation that will reduce the Department's budget by
$14.1 billion over five years and contribute more than $5.3 billion to future
deficit reductions.

        In response to those streamlining efforts, Idaho initiated several actions
that are consistent with the Secretary's deficit reduction goals. Idaho's budget
requests, for example, have decreased from $818.6 million in 1994 to $678 million
in Fiscal Year 1996. Idaho also canceled 4 of the 290 construction projects
totaling more than $7.6 million and returned those funds as part of a Fiscal Year
1995 budget rescission. Furthermore, Idaho plans to consolidate the security
facilities at the Idaho Chemical Processing Plant and build an emergency response
training facility at the Central Facilities Area. Combined, those two construction
projects are expected to reduce operating costs by as much as $3.9 million,
annually.

        Although Idaho's actions effectively reduced costs, additional reassessments
of construction projects could potentially result in saving and reprogramming $26.4
million identified by the audit. For example, the audit identified five
construction projects totaling approximately $4.3 million that are not needed and
two others totaling $38 million that are oversized by a combined $22.1 million.
The five projects that are not needed are located in Test Area North, the Idaho
Chemical Processing Plant, and the Naval Reactors Facility. The two remaining
projects that are oversized include the Administrative Support Facility and Health
Physics Instrument Laboratory at the Central Facilities Area. Because Idaho did
not verify or reassess the need for these projects based on the Laboratory's
mission change in Fiscal Year 1995, it continued pursuing and budgeting for these
seven projects. If Idaho verifies and reassesses the need for all planned
construction projects now, however, it could potentially save and reprogram more
than the $26.4 million that we identified for these seven sample projects.

        In our opinion, management should consider the finding in this report when
preparing its yearend assurance memorandum on internal controls.

PART II

FINDINGS AND RECOMMENDATIONS

Laboratory Construction Projects

FINDING

        The Secretary's streamlining efforts since 1993, coupled with established
policy, require the Idaho Operations Office to ensure that all construction
projects are needed to support the Laboratory's mission and are cost-effective.
However, our audit identified five facility upgrade and expansion projects totaling
about $4.3 million that are not needed to support the Laboratory's mission. It
also identified two facility replacement projects that Idaho can downsize by as
much as a combined $22.1 million. Idaho continued to pursue and budget for these
projects because it did not (1) consistently verify the need for these projects;
(2) independently identify and evaluate alternatives; and (3) reassess the need for
these projects in light of the Laboratory's current and foreseeable mission
requirements. By consistently verifying, independently identifying and evaluating
alternatives, as well as reassessing the need for all construction projects now,
however, Idaho can potentially save and/or reprogram the $26.4 million identified
by the audit.

RECOMMENDATIONS

        We recommend that the Manager, Idaho Operations Office review construction
projects to determine whether they support current or foreseeable mission needs.
As part of this review, we recommend that the Manager:

cancel planned construction projects that do not support the Laboratory's current
and foreseeable mission;

for those construction projects that are needed, independently identify and
consistently evaluate alternatives and limit the size to that required to achieve
the Laboratory's mission; and,

reassess the need for and size of construction projects when significant events
occur.

MANAGEMENT REACTION

        Management concurred with the finding and recommendations, and has initiated
corrective actions. Detailed management and auditor comments are provided in Part
III of this report.

DETAILS OF FINDING

        According to the Secretary of Energy's streamlining efforts, the Department
is committed to making the Laboratory smaller and less costly to operate. The
Department accepted, for example, a National Performance Review challenge to
streamline operations and consolidated five former Laboratory contractors into one
management and operating contractor (Lockheed). Furthermore, the Secretary's
Strategic Alignment Initiative states that these streamlining efforts will continue
over the next five years. Achieving the Secretary's goal of streamlining, however,
will require Idaho to consistently employ prudent business practices and industry
standards to effectively challenge construction projects that are not consistent
with the Laboratory's current and foreseeable mission.

        Lockheed's management and operating contract with the Department includes
project responsibilities encompassing all construction project phases from
conceptual design through construction completion. In addition, Department Order
430.1, "Life Cycle Asset Management," (Order) requires Idaho to (1) consistently
verify the need for planned construction, (2) independently identify and
consistently evaluate all competing project alternatives; and (3) reassess the need
for planned construction projects when significant events occur such as a mission
change or program redirection. (This Order supercedes the previous Department
Order on project management.)

UNNEEDED AND OVERSIZED LABORATORY CONSTRUCTION PROJECTS

        Although Idaho had taken action to effectively reduce costs, the audit
identified 7 of 52 construction projects that were either not needed or larger than
needed to meet the Laboratory's current and foreseeable mission. Five of the
unneeded projects ($4.3 million) are located in Test Area North, the Idaho Chemical
Processing Plant, and the Naval Reactors Facility. The two oversized projects
($22.1 million) include the Administrative Support Facility and Health Physics
Instrument Laboratory, at the Central Facilities Area.

       Upgrade Buildings 601 and 602

        The Fiscal Year 1995 Site Development Plan indicates that Test Area North
will close within the next 15 years because the programs there will end around
Fiscal Year 2010. Notwithstanding the scheduled closure of Test Area North,
Laboratory officials   planned to upgrade buildings 601 and 602 at a cost of
$981,000. This project, scheduled to begin in the third quarter of Fiscal Year
1996, calls for replacing, or upgrading, the water pipes and valves around the
guard house (building 601) and administrative office building (building 602).
However, buildings 601 and 602 are scheduled to close by the end of Fiscal Year
1995, at which time their utilities will be turned off and, when funding becomes
available, they will be demolished.

       Upgrade Project at Test Area North Building 607

        Laboratory officials also planned to upgrade the records storage area in
building 607 at a cost of $200,000. The justification statement asserted that
upgrading this space was needed to improve the safety, reliability, and security
for storing sensitive records for the Three Mile Island reactor core storage
project as well as the records for the Specific Manufacturing Capability Program.
However, the Department is planning to ship the Three Mile Island reactor core and
associated records to the Idaho Chemical Processing Plant. Additionally, the
Specific Manufacturing Capability Program is scheduled to end around Fiscal Year
2000. Because these programs as well as the associated records will leave Test
Area North, there is no need to upgrade the records storage area in building 607.
After we met with management, Idaho determined that the existing records storage
area was adequate and reprogrammed the funding to other projects.

       Bunkhouse Expansion Project

        According to the Site Development Plan, Laboratory officials plan to expand
a bunkhouse at the Idaho Chemical Processing Plant. The proposed bunkhouse
expansion was estimated to cost about $670,000 and be completed in Fiscal Year
1995. Initially, Lockheed proposed this expansion project in 1994 to accommodate
employees who become too tired to drive home after working long hours at the Plant,
even though the Laboratory's bus service is available to transport these employees
home. Additionally, Lockheed justified the expansion project as a means to house
employees who may become stranded at the Plant during severe winter weather.
Although this justification appears reasonable, it does not in itself justify
expanding the existing bunkhouse. For example, management did not provide a basis
for determining the number of employees who could become stranded at any one time
or whether current facilities could not or would not temporarily accommodate these
employees. We also noted that there are a number of vacant facilities which could
be temporarily converted to accommodate stranded employees at a cost significantly
less than $670,000. After our meeting with management, Idaho reassessed the need
for the bunkhouse expansion project and terminated it.

       Retrievable Records Storage Facility

        Laboratory officials also planned to construct a 4,800 square foot
Retrievable Records Storage Facility at a cost of nearly $1.6 million to bring its
records storage practices into compliance with Federal and Departmental
requirements. The Facility was to provide a safe and central location to control,
track, file, retrieve, and microfilm various Plant records. However, office space
that is already vacant could be used to satisfy the records storage requirements.
We noted, for example, a vacant facility adjacent to the area where Lockheed was
proposing to construct this new building that could be used to store retrievable
records. According to the Site Development Plan, this vacant facility contains
more than 160,000 square feet of space, was built in 1992, and has never been used.
Of these 160,000 square feet, only 4,800 square feet are needed for the Retrievable
Records Storage Facility. We, therefore, concluded that using vacant space is a
viable and less expensive alternative to constructing a new facility. After we met
with management, Idaho reassessed the need for this project and terminated it.

       Parking Lot Upgrade

        Our audit also showed that Laboratory officials planned to spend more than
$1.3 million upgrading a parking lot at the Naval Reactors Facility were
inconsistent with a Lockheed engineering report. According to Lockheed's PAVER
system, Laboratory roads and parking lots are not subject to extensive or major
repairs until they are inspected and receive a rating of less than 60. On a scale
of 0 to 100, with a score of 100 being the best, a 1991 inspection rated the
Reactors' parking lot at 73. The PAVER system also projected a rating of 65 for
August 31, 1998. Despite this data, however, Lockheed planned to spend more than
$1.3 million to upgrade this parking lot in 1995. Consequently, we concluded that
the anticipated expenditure is not needed until Fiscal Year 1998, or beyond, and
that Idaho may be able to use the 1995 funds for higher priority projects. After
our meeting with Idaho, management reviewed the need for this project and changed
its scope to rehabilitation of a road leading to the Naval Reactors Facility, at a
cost of $450,000.

       Administrative Support Facility

        In 1995, Lockheed proposed building an 80,000 square foot Administrative
Support Facility. However, the size of this facility is not consistent with the
Laboratory's mission change, contract consolidation, and Lockheed's workforce
reduction of nearly 1,250 positions. According to the validation report and
project data sheet, this construction will replace and consolidate approximately
17,000 square feet of existing space in ten buildings around the Central Facilities
Area. Since the proposed facility was 63,000 square feet larger than the combined
size of the existing facilities and the extra size was unjustified, we concluded
that $17.4 million would unnecessarily be spent on this project. As of October 1,
1995, Idaho placed this project on indefinite hold and is presently reassessing the
need for and scope of this project in light of changing missions.

       Health Physics Instrument Laboratory

        Lockheed also proposed building a 21,000 square foot Health Physics
Instrument Laboratory. However, this facility also is larger than needed.
According to the validation report, project data sheet, and conceptual design
report, this construction project will replace an existing 15,000 square foot
Laboratory. If the scope of the proposed Laboratory was reduced to 15,000 square
feet, costs could be reduced by as much as $4.7 million. After we met with
management to discuss this project, Idaho requested Lockheed to investigate other
options such as privatizing the facility.

VERIFYING AND REASSESSING THE NEED FOR PLANNED CONSTRUCTION

        Although Lockheed has the authority to manage construction projects from
conceptual design through project completion,   Idaho still has responsibility,
under Department Order 430.1, to   verify the need for construction, identify and
evaluate alternatives, and reassess need when significant events occur. This
responsibility includes reviewing and approving technical reports, drawings,
specifications, and technical information delivered by the contractor. In contrast
to this responsibility, however, Idaho continued to pursue and budget for the seven
construction projects because it did not (1) verify the need for at least one
project; (2) identify and evaluate all competing alternatives; and (3) reassess the
need for the six remaining projects in light of the Laboratory's decreasing mission
requirements.

        As part of verifying that a need exists to construct facilities, the Order
requires Idaho to obtain and review Lockheed's conceptual design report, functional
and operational requirements, and a justification statement for planned
construction projects. Idaho should also review these documents to determine if
they are consistent with the Laboratory's current and foreseeable mission. For 6
of the 7 projects reviewed, Idaho initially verified that the construction projects
were consistent with the Laboratory's mission. For the Administrative Support
Facility, however, Idaho did not thoroughly review a copy of the conceptual design
report, or revise and update the functional and operational requirements and
justification statement to ensure that the $22.1 million Administrative Support
Facility was needed, in its entirety, to support the Laboratory's mission.

        In addition, Idaho did not independently identify and evaluate all competing
project alternatives for the Administrative Support Facility, as required by the
Order. According to the documentation for this project, Idaho identified only two
alternatives -- either to do nothing or upgrade existing buildings. The three
other alternatives that Idaho either did not consider or did not fully evaluate
included (1) upgrading existing buildings; (2) transferring the administrative
functions to another Laboratory mission area; or (3) determining whether a need
continued to exist for these administrative functions. In the absence of a
thorough identification and evaluation of alternatives, Idaho cannot ensure that
constructing the Administrative Support Facility is the most cost-effective
solution.

        Furthermore, Idaho either did not perform or did not fully document a
required current reassessment of the need for the six remaining projects in light
of the Laboratory's mission change and streamlining initiatives that began in
Fiscal Year 1995. For example, Idaho continued using outdated results of two
studies to justify the Health Physics Instrument Laboratory project at the Central
Facilities Area. Idaho also continued using the results of a 1991 study to justify
the two upgrade projects at Test Area North. Finally, Idaho scheduled the parking
lot upgrade project at the Naval Reactors Facility without performing an additional
engineering inspection before approving the project. Without either performing or
fully documenting a reassessment of the need for these six projects, Idaho cannot
sufficiently ensure they are consistent with the Laboratory's mission.

ESTIMATED SAVINGS

        By examining the seven construction projects identified in this report,
Idaho can potentially save and reprogram about $26.4 million identified by the
audit. This amount includes about $981,000 for the upgrade project at buildings
601 and 602 and $200,000 for the records storage upgrade at building 607 within
Test Area North. Our estimate also includes $670,000 for the bunkhouse expansion
project and nearly $1.6 million for the records storage facility at the Idaho
Chemical Processing Plant as well as about $850,000 for the rescoped parking lot
upgrade project at the Naval Reactors Facility. Finally, we estimate that Idaho
can save more than $17.4 million for the proposed Administrative Support Facility
and more than $4.7 million for the Health Physics Instrument Laboratory at the
Central Facilities Area.

        During our audit, we randomly selected and reviewed 52 projects totaling
more than $465.9 million. Of those 52 projects, our audit identified five that
were not needed to achieve the Laboratory's mission. It also identified two
planned construction projects that are potentially larger than needed in light of
the Laboratory's decreasing mission requirements. The combined potential savings
for these projects is approximately $26.4 million.

PART III

MANAGEMENT AND AUDITOR COMMENTS

        In responding to the Initial Draft Report, management stated that the
Inspector General's audit was value-added and provided an overall balanced
perspective of the construction management process at the Idaho Operations Office.
Management also expressed its appreciation for the cooperative, courteous, and
professional attitude exhibited by the Inspector General's office during the audit.
Idaho management stated further that it is working to improve and rectify the
weaknesses identified in the report and provided several examples, which we have
included in the text.

Recommendation 1

        Management Comments. Management concurred with our recommendation to review
and cancel planned construction projects that do not support the Laboratory's
current and foreseeable mission. Specifically, management stated that the Office
of Infrastructure Management conducts formal monthly, quarterly, mid-year, and year
end meetings to assess the need for planned construction projects in relation to
the Laboratory's current and foreseeable mission. Additionally, these are
procedures that Idaho will continue implementing under the new Life Cycle Asset
Management order.

        Auditor Comments.   Management comments and actions are responsive to the
recommendation.

Recommendation 2

        Management Comments. Management also concurred with our recommendation to
independently identify and consistently evaluate alternatives and to limit the size
of construction projects to that required to achieve the Laboratory's mission. In
its response to this recommendation, management stated that Idaho will
independently identify and consistently evaluate alternatives and limit the size of
construction projects as part of implementing the Department's Life Cycle Asset
Management order during the first part calendar Year 1996.

        Auditor Comments.   Management comments and actions are responsive to the
recommendation.

Recommendation 3

        Management Comments. Finally, management concurred with our recommendation
to reassess the need for and size of planned construction projects when significant
events occur. Specifically, management stated that formal monthly meetings are
held in order to reassess the need for and size of construction projects when
significant events occur. Also, the recommendation to reassess construction
projects will be addressed in more detail in the Life Cycle Asset Management order
that Idaho will implement in the first part of calendar year 1996.

        Auditor Comments.   Management comments and corrective actions are responsive
to the recommendation.

PART IV

OTHER MATTERS

Classifying Projects

        According to Department Order 4700.1, "Project Management System," the
Department's field elements are responsible for ensuring the proper classification
of all construction projects. Specifically, this Order requires the Department's
field elements to classify all projects exceeding $2.0 million as line item
construction projects, and to obtain approval from Congress before initiating these
types of projects. When projects cost less than $2 million, the Order requires the
Department's field elements to classify them as a General Plant Project. This
category includes general plant projects, operating expense funded projects and, in
some cases, capital equipment projects that do not require congressional approval
because Congress typically approves a single overall amount for these types of
projects in the Department's annual budget.

        We found, however, that a former management and operating contractor
official split into three other projects a $3.33 million voice paging and
evacuation system upgrade project. Specifically, Westinghouse Idaho Nuclear
Company (Westinghouse), a former management and operating contractor, identified a
need to upgrade the voice paging and evacuation system at the Idaho Chemical
processing plant during a 1989 and 1990 review of that system. As a result of the
1989 review, Westinghouse discovered several deficiencies that would cost about
$1.1 million to correct. Then, in 1990, Westinghouse conducted another evaluation
of the system and found numerous deficiencies that increased the original estimate
from $1.1 million to more than $3.3 million. Consequently, Idaho should have
classified this comprehensive project as a line item in the Department's annual
budget.

        However, the Westinghouse official responsible for the voice paging and
evacuation system upgrade project split it into three "other projects." These
three "other projects" included a $1.1 million general plant project for the voice
paging part of the project; a $2.2 million capital equipment acquisition for the
emergency communication upgrade part of the project; and an additional $30,000 was
transferred to an unrelated fire and life safety upgrade project. According to the
internal correspondence documents that we obtained and reviewed, this occurred
because the former Westinghouse official believed the Department would not approve
the entire project as a single line item. Consequently, Westinghouse split the
project into three separate projects that will be completed by the end of Fiscal
Year 1995 at a total cost not to exceed $3.33 million. Idaho believes that these
three projects can be justified as stand-alone projects and, therefore, qualify as
legal and rational General Plant Projects under the Department's funding
determination guidance.

        The Office of Inspector General is not questioning the need for the initial
voice paging and evacuation system upgrade project, or the three resulting
projects, since the nature of the Idaho Chemical Processing Plant's nuclear storage
mission requires a reliable voice paging and emergency evacuation system. Instead,
the Office of Inspector General believes that Idaho's internal controls are weak in
detecting and preventing future instances of project splitting. Accordingly, the
Idaho Operations Office should also consider this condition when preparing its year
end assurance memorandum on internal controls.

IG Report No. WR-B-96-03


CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the
usefulness of its products. We wish to make our reports as responsive as possible
to our customers' requirements and, therefore, ask that you consider sharing your
thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the
following questions if they are applicable to you:

1.      What additional background information about the selection, scheduling,
scope, or procedures of the audit or inspection       would have been helpful to the
reader in understanding this   report?

2.      What additional information related to findings and recommendations could
have been included in this report to assist management in implementing corrective
actions?

3.      What format, stylistic, or organizational changes might have made this
report's overall message more clear to the reader?

4.      What additional actions could the Office of Inspector       General have
taken on the issues discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we
have any questions about your comments.

Name__________________________________ Date____________________
Telephone_____________________________ Organization____________

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

       Office of Inspector General (IG-1)
       Department of Energy
       Washington, D.C. 20585
       Attn: Customer Relations

If you wish to discuss this report or your comments with a staff member of the
Office of Inspector General, please contact    Wilma Slaughter on (202) 586-1924.




16
